                     AUDIT REPORT



                  Audit of NRC’s Agreement State Program

                       OIG-09-A-08      March 16, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  March 16, 2009


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S AGREEMENT STATE PROGRAM
                            (OIG-09-A-08)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Agreement State Program.

The report presents the results of the subject audit. Agency comments provided at the
December 16, 2008, exit conference, a subsequent January 9, 2009, meeting, and
submitted formally on February 26, 2009, have been incorporated, as appropriate, into
this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Safety Audit Team, at 415-5914.

Attachment: As stated
Electronic Distribution

Edward M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
Brooke Poole, Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                              Audit of NRC’s Agreement State Program



EXECUTIVE SUMMARY

   BACKGROUND

         In accordance with section 274 of the Atomic Energy Act, as
         amended, the Nuclear Regulatory Commission (NRC) may
         relinquish its authority to regulate byproduct, source, and limited
         quantities of special nuclear material to States (Agreement
         materials). These States must first demonstrate that their
         regulatory programs are adequate to protect public health and
         safety and compatible with NRC’s program. States that have
         entered into an agreement assuming this regulatory authority from
         NRC are called Agreement States. There are currently 35
         Agreement States.

         NRC has programmatic responsibility to periodically review the
         actions of the Agreement States to comply with the requirements of
         the Atomic Energy Act. NRC's policy is to evaluate Agreement
         State radiation control programs using performance indicators to
         ensure that public health and safety is being adequately protected
         and that Agreement State programs are compatible with NRC’s
         program. In order to accomplish this task, NRC periodically
         reviews Agreement States using the Integrated Materials
         Performance Evaluation Program (IMPEP).


   PURPOSE

         The audit objective was to assess NRC's oversight of the adequacy
         and effectiveness of Agreement State programs. The Office of the
         Inspector General (OIG) focused its review on the IMPEP process
         as well as other elements of the Agreement State program.


   RESULTS IN BRIEF

         The purpose of the Agreement State program is to ensure the
         adequate protection of public health and safety in the uses of
         Agreement materials. Although NRC maintains oversight of
         Agreement States, there are program adequacy and effectiveness
         issues that require management’s attention. Specifically,

         ¾ NRC does not effectively monitor IMPEP operational issues.




                                    i
                                   Audit of NRC’s Agreement State Program



      o Agreement State program managers are unaware of
        several operational issues because there is no
        systematic mechanism for conducting self-assessments
        and capturing lessons learned for IMPEP. Consequently,
        IMPEP may not be as effective as it could be for
        assessing the adequacy and compatibility of Agreement
        State programs.

¾ NRC could be challenged to re-exert authority over an
  Agreement State program in the event of an emergency.

      o Under the Atomic Energy Act, NRC can temporarily
        suspend its agreement with a State during an emergency
        situation. However, NRC has not identified all of the
        information necessary for re-exerting authority and lacks
        the formal procedural guidance about what information is
        needed about Agreement State programs and materials
        licensees. Without this valuable planning information,
        NRC could lose oversight and awareness of licensees
        and materials.

¾ NRC lacks standardization in communications with, and
  collection of information from, the Agreement States.

      o NRC lacks (1) standardization in communication
        procedures, and (2) a standardized data collection
        process that can be used as a basis for developing a
        national information sharing tool. As a result, some
        States may be unaware of important issues, and NRC
        does not have a full and accurate picture of Agreement
        State regulatory activities.

¾ Weaknesses exist in NRC’s review of Agreement State event
  reporting.

      o NRC’s reviews of whether an Agreement State has
        appropriately reported all events to the Nuclear Material
        Events Database (NMED) may not be consistently
        performed. NRC’s IMPEP reviews do not require an
        analysis of unreported events to determine whether such
        events are being appropriately identified for and included
        in NMED. Consequently, NRC and the public may have
        an inaccurate accounting of material events in some
        States, which could also hamper events data trend
        analysis efforts.




                         ii
                                         Audit of NRC’s Agreement State Program



RECOMMENDATIONS

     This report makes five recommendations to help NRC improve its
     partnership with, and oversight of, Agreement States. A
     Consolidated List of Recommendations appears in Section IV.


OIG ANALYSIS OF AGENCY COMMENTS

     On December 3, 2008, OIG provided a draft report to the Executive
     Director of Operations. On February 26, 2009, the Executive
     Director for Operations provided a formal response to this report.
     The agency’s transmittal letter and specific comments on this report
     are included in their entirety as Appendix B.

     The final report incorporates revisions made, where applicable, as
     a result of meetings with NRC staff and the agency’s written
     comments. Appendix C contains OIG’s analysis of the agency’s
     formal response.




                               iii
                          Audit of NRC’s Agreement State Program




[Page intentionally left blank.]




               iv
                                      Audit of NRC’s Agreement State Program



ABBREVIATIONS AND ACRONYMS

       FSME    Office of Federal and State Materials and
               Environmental Management Programs

       IMPEP   Integrated Materials Performance Evaluation Program

       MRB     Management Review Board

       NMED    Nuclear Material Events Database

       NRC     Nuclear Regulatory Commission

       NSIR    Office of Nuclear Security and Incident Response

       OIG     Office of the Inspector General

       OMB     Office of Management and Budget

       PM      Project Manager

       RSAO    Regional State Agreements Officer

       SA      State Agreement




                            v
                         Audit of NRC’s Agreement State Program




[Page intentionally left blank]




              vi
                                                           Audit of NRC’s Agreement State Program



TABLE OF CONTENTS

        EXECUTIVE SUMMARY..............................................................i
        ABBREVIATIONS AND ACRONYMS .........................................v
        I.     BACKGROUND...................................................................1
        II.    PURPOSE ..........................................................................5
        III.   FINDINGS ...........................................................................6
                 A. MANAGEMENT DOES NOT EFFECTIVELY
                    MONITOR IMPEP OPERATIONAL ISSUES..........................6

                 B. NRC COULD BE CHALLENGED TO RE-EXERT AUTHORITY
                    OVER AN AGREEMENT STATE PROGRAM IN THE
                    EVENT OF AN EMERGENCY ...........................................10

                 C. NRC LACKS STANDARDIZATION IN COMMUNICATIONS
                    WITH, AND COLLECTION OF INFORMATION FROM,
                    THE AGREEMENT STATES .............................................13

                 D. WEAKNESSES EXIST IN NRC’S REVIEW OF AGREEMENT
                    STATE EVENT REPORTING ............................................19

        IV.    CONSOLIDATED LIST OF RECOMMENDATIONS..........22

    APPENDICES

        A.     SCOPE AND METHODOLOGY ........................................23
        B.     FORMAL AGENCY COMMENTS .....................................25
        C.     OIG ANALYSIS OF AGENCY COMMENTS .....................27




                                            vii
                          Audit of NRC’s Agreement State Program




[Page intentionally left blank.]




              viii
                                                                 Audit of NRC’s Agreement State Program



I.    BACKGROUND

                 In accordance with Section 274 of the Atomic Energy Act, as
                 amended, “Cooperation with States,” the Nuclear Regulatory
                 Commission (NRC) may relinquish1 its authority to regulate
                 byproduct, source, and limited quantities of special nuclear
                 material2 to States, hereafter collectively referred to as “Agreement
                 materials.” These States must first demonstrate that their
                 regulatory programs are adequate to protect public health and
                 safety and compatible with NRC’s program. States that have
                 entered into an agreement assuming this regulatory authority from
                 NRC are called Agreement States. There are currently 35
                 Agreement States, and 3 States that have submitted a letter of
                 intent to become Agreement States (see Figure 1).

                                     Figure 1: Map of the Agreement States




         Source: Information depicted based on NRC Web site as of September 9, 2008.




1
   Under Section 274j, the Commission retains authority to terminate or suspend the agreement and re-exert
licensing and regulatory authority.
2
   The Atomic Energy Act of 1954, as amended, defines byproduct material, in part, as any radioactive
material (except special nuclear material) yielded in or made radioactive by exposure to the radiation
incident to the process of producing or utilizing special nuclear material.


                                                    1
                                     Audit of NRC’s Agreement State Program



NRC and the Agreement States are responsible for ensuring the
adequate protection of public health and safety in the uses of
Agreement materials. Accordingly, NRC and the Agreement States
must have supporting legislative authority, an implementing
organizational structure and procedures, and financial and human
resources to effectively administer a radiation control program.

The Office of Federal and State Materials and Environmental
Management Programs (FSME) administers the Agreement State
program. For fiscal year 2008, the agency budgeted $57.4 million,
including 270 full-time equivalent staff, for activities to regulate
nuclear material users. Of the budgeted full-time equivalent staff,
approximately 10 percent was dedicated to the Agreement State
program. FSME activities include reviewing State requests to
assume authority to regulate certain Agreement materials,
reviewing Agreement State performance, monitoring State
activities, and providing advice and guidance to Agreement States.
Most of the NRC regions also have one or two Regional State
Agreements Officers (RSAO) that serve as the regional focal point
to implement the Agreement State program. Each RSAO is
assigned a number of Agreement States for which they serve as
NRC’s primary point-of-contact.

NRC has programmatic responsibility to periodically review the
actions of the Agreement States to comply with the requirements of
the Atomic Energy Act. NRC's policy is to evaluate Agreement
State radiation control programs using performance indicators to
ensure that public health and safety is being adequately protected
and that Agreement State programs are compatible with NRC’s
program. In order to accomplish this task, NRC periodically
reviews Agreement States. In 1994, the agency revised its
program for reviewing Agreement States and created the Integrated
Materials Performance Evaluation Program (IMPEP).

      IMPEP Review Process

NRC uses IMPEP to evaluate each Agreement State radiation
control program generally every 4 years in order to provide an
overall assessment of a State’s adequacy to protect public health
and safety and compatibility with NRC’s program. Management
Directive 5.6, Integrated Materials Performance Evaluation
Program, establishes the process and defines the performance
criteria by which NRC conducts such periodic IMPEP assessments
to determine the adequacy and compatibility of Agreement State
programs.




                           2
                                               Audit of NRC’s Agreement State Program



            As shown in Figure 2 below, the IMPEP review process begins
            when the IMPEP project manager (PM)—an individual assigned by
            FSME to oversee the program’s operations—prepares a schedule
            of the upcoming reviews and appoints members to an IMPEP
            review team. IMPEP teams are composed of three to eight State
            and NRC employees, including a team leader and the RSAO to the
            State under review. Team members are required to attend a 1 1/2 -
            day training session and periodic refresher training on IMPEP,
            which emphasizes the value of IMPEP guidance and procedures
            and the importance of being prepared.

Figure 2: Integrated Materials Performance Evaluation Program (IMPEP)
Review Process




            Prior to the start of the onsite IMPEP review, the IMPEP PM
            provides the teams with compact discs that contain program-
            specific information, IMPEP procedures and guidance, and
            templates of model IMPEP reports. Accordingly, IMPEP team
            members review State responses to a pre-IMPEP questionnaire
            and perform inspection accompaniments before the onsite review.
            The pre-IMPEP questionnaire is a form with a series of questions
            that States complete prior to the IMPEP review, and IMPEP team
            members are responsible for evaluating the State’s responses prior
            to the start of the onsite review. Inspection accompaniments are




                                      3
                                    Audit of NRC’s Agreement State Program



performed by selected IMPEP team members and/or NRC staff
who accompany Agreement State inspectors at different types of
licensed facilities to evaluate their knowledge and capabilities.

During the onsite review, the IMPEP team evaluates the State’s
program against a set of performance indicators. IMPEP reviews
should identify the underlying cause of performance weaknesses
related to the performance indicator. Such performance
weaknesses are referred to as findings, and the IMPEP team will
typically propose recommendations for issues that need to be
addressed. Throughout the onsite review, the IMPEP team briefs
the State’s program management on the status and preliminary
findings of the review. At the end of the onsite review, the IMPEP
team assesses whether the State’s program is adequate to protect
public health and safety and is compatible with NRC’s program.

Within 30 days of conclusion of the onsite review, the IMPEP team
leader assembles the report, submits it to the IMPEP project
manager for a technical review, and then issues the draft report to
the State for factual review. The IMPEP team next incorporates the
State’s comments and then presents the report containing
preliminary findings to the Management Review Board (MRB)
during a meeting that includes State representatives and the
IMPEP team.

The MRB is composed of NRC senior management and a non-
voting State member. It is responsible for making a final overall
assessment of a State’s adequacy to protect the public health and
safety and compatibility with NRC’s program. At the MRB meeting,
the State under review has an opportunity to comment on NRC’s
review of its program. Within 104 days of the end of the onsite
review, the IMPEP report is finalized and issued.

Other Agreement State Activities

The collective framework within which NRC and the Agreement
States function in carrying out their respective radiation safety
regulatory programs is called the National Materials Program. The
term “National Materials Program” was conceptualized in late 1990,
and focuses on the shared program activities between NRC and
the Agreement States as well as the ability of the Agreement States
to assume a greater proportional responsibility for shared program
activities. The program is also intended to reflect the evolving
relationship among NRC and the Agreement States.




                          4
                                              Audit of NRC’s Agreement State Program



          NRC serves as the Federal-level presence for radioactive materials
          safety and security under the National Materials Program, which
          includes coordinating activities between NRC and the Agreement
          States. One example of a coordinating activity is Agreement State
          letters. An Agreement State letter is a document prepared by NRC
          to, among other things, convey programmatic information to the
          States and request comments on policy changes. Another example
          is NRC’s coordination of Agreement State data submissions to the
          Nuclear Material Events Database (NMED), which contains
          information on the occurrence, description, and resolution of events
          involving the use of radioactive materials.


II.   PURPOSE

          The audit objective was to assess NRC's oversight of the adequacy
          and effectiveness of Agreement State programs. The Office of the
          Inspector General (OIG) focused its review on the IMPEP process
          as well as other elements of the Agreement State program.
          Appendix A provides information on the audit scope and
          methodology.




                                    5
                                                 Audit of NRC’s Agreement State Program



III.   FINDINGS

            The purpose of the Agreement State program is to ensure the
            adequate protection of public health and safety in the uses of
            Agreement materials. Although NRC maintains oversight of
            Agreement States, there are program adequacy and effectiveness
            issues that require management’s attention. Specifically:

            A. Management does not effectively monitor IMPEP operational
               issues.

            B. NRC could be challenged to re-exert authority over an
               Agreement State program in the event of an emergency.

            C. NRC lacks standardization in communications with, and
               collection of information from, the Agreement States.

            D. Weaknesses exist in NRC’s review of Agreement State event
               reporting.


       A. Management Does Not Effectively Monitor IMPEP Operational
          Issues

            FSME management does not effectively monitor operational issues
            related to the IMPEP program. Office of Management and Budget
            (OMB) internal control guidance states that a systematic process
            for monitoring the effectiveness of a program should be in place for
            addressing deficiencies. However, FSME management is unaware
            of several operational issues because there is no systematic
            mechanism for conducting self-assessments and capturing lessons
            learned for IMPEP. Consequently, IMPEP may not be as effective
            as it could be for assessing the adequacy and compatibility of
            Agreement State programs.

            Guidance for Monitoring the Effectiveness of a Program

            OMB Circular A-123, Management’s Responsibility for Internal
            Control, states that a systematic process for monitoring the
            effectiveness of a program should be in place for addressing
            deficiencies. This circular introduces several objectives for
            developing and maintaining internal control activities. One of those
            objectives, “Monitoring,” states that periodic assessments should
            be integrated as part of management’s continuous oversight of




                                      6
                                                              Audit of NRC’s Agreement State Program



                internal control. In addition, management should evaluate the
                internal control deficiencies that are reported and take proper action
                to correct them.

                Management Unaware of Operational Issues

                During OIG’s review, FSME management was unaware of several
                IMPEP operational issues, including:

                ¾ A lack of underlying cause analysis during IMPEP reviews and
                  in reports.

                ¾ An inconsistent use of the pre-IMPEP questionnaire.

                ¾ IMPEP team leaders underprepared to conduct reviews.

                ¾ Selected IMPEP team members and/or NRC staff
                  accompanying State inspectors unaware of associated
                  guidance.

                FSME management was unaware that the underlying cause of a
                performance weakness in an Agreement State program is rarely
                discussed during IMPEP reviews and stated in reports. Identifying
                the underlying cause is important in order to focus IMPEP review
                recommendations towards State program weaknesses.3 However,
                OIG attended four onsite reviews and the underlying cause for the
                performance weaknesses identified was not consistently mentioned
                in the IMPEP teams’ finding discussions. OIG also reviewed
                recently issued IMPEP reports,4 and determined that the majority of
                the recommendations in these reports were not directly supported
                with a discussion of the underlying, rather than the apparent,
                cause. FSME managers contend that the IMPEP reports have
                sufficient discussions to support the recommendations.

                FSME management was also unaware of the inconsistent use of
                the pre-IMPEP questionnaire responses. The questionnaire
                responses are provided to the IMPEP team members during the
                weeks prior to the onsite IMPEP review. However, OIG observed
                that there were IMPEP team members, including a team leader,
                who had not thoroughly analyzed the questionnaire responses prior
                to the onsite review. For example, during one IMPEP review, OIG
                observed that the State had only partially answered certain
                questions, yet the IMPEP team members asserted that the State

3
  An underlying cause is the fundamental reason—rather than the apparent reason or symptom—that
explains a program weakness or performance issue.
4
  OIG reviewed IMPEP reports issued from January 19, 2007, to August 27, 2008.


                                                  7
                                                                 Audit of NRC’s Agreement State Program



                 had thoroughly answered all of the questions. In another IMPEP
                 review, a team member spent part of the review looking for an
                 answer that was already provided in the State’s questionnaire
                 response.

                 Another issue lacking FSME management awareness pertains to
                 team leader preparation. OIG observed that some team leaders
                 were not thoroughly prepared for their respective IMPEP reviews.
                 During one IMPEP review, the team leader was not aware of how
                 many outstanding recommendations the State had from the
                 previous IMPEP review. During another review, the team leader
                 did not understand that particular State’s management structure
                 and spent a considerable amount of time during the review trying to
                 discern it. Also, during the IMPEP reviews that OIG observed, only
                 one team leader prompted the team to discuss the underlying
                 cause of the team members’ findings.

                 FSME management was also unaware that selected IMPEP team
                 members and/or NRC staff who accompanied State inspectors are
                 not aware of associated inspection guidance. State Agreement
                 (SA)-102,5 Reviewing the Common Performance Indicator,
                 Technical Quality of Inspections, provides guidance on the
                 accompaniment role of the IMPEP team member, including
                 guidance to observe the State inspector’s work rather than help
                 with the inspection effort. Yet some accompaniment participants
                 were unaware of this guidance. OIG interviewed nine State and
                 NRC employees who had performed accompaniment inspections
                 during the past 2 years, and one-third of them were not aware of
                 SA-102. Moreover, nearly half of these accompaniment
                 participants were unaware that SA-102 also provides, as a
                 convenience, a checklist of items to review while performing these
                 inspections.

                 No Systematic Mechanism for Conducting Self-Assessments

                 FSME has not established a systematic mechanism for conducting
                 self-assessments and capturing IMPEP lessons learned. In 2001,
                 after the first round of IMPEP reviews,6 NRC appointed a working
                 group to assess the IMPEP program for lessons learned. However,
                 this group issued only one report and no further assessments were
                 conducted. The working group’s report, dated April 2002,
                 examined several program areas, such as the IMPEP
                 questionnaire, guidance for conducting IMPEP reviews, and the

5
 SAs are Agreement State program procedures issued by FSME.
6
 The first round of IMPEP reviews consisted of the first review for each Agreement State and was
concluded in 1999.


                                                    8
                                    Audit of NRC’s Agreement State Program



effectiveness of the performance indicators. Although this review
examined some structural issues of the IMPEP review process and
offered subsequent improvements, the working group did not
address IMPEP program operational issues. FSME management
confirmed that after this working group, there has not been another
formal IMPEP assessment.

Nonetheless, FSME does seek opportunities to continuously
improve the IMPEP program on a review-to-review basis, for
example, by seeking feedback from managers of programs that
have been reviewed and through the IMPEP PM’s participation on
IMPEP reviews. FSME management has delegated authority of
IMPEP operations to the IMPEP PM and contends that IMPEP
team member performance issues are brought to FSME
management’s attention.

However, FSME management is still reliant on staff to self-identify
and communicate such issues, mostly on an informal basis. For
example, one manager said that operational issues are
communicated from staff to management on a case-by-case basis.
Another manager stated that FSME management wants to know
how well the teams are performing, but this communication is done
informally.

IMPEP May Not Be As Effective As It Could Be

Without a systematic mechanism for capturing lessons learned,
IMPEP will not be as effective as it could be for assessing the
adequacy and compatibility of Agreement States. FSME
management may be unaware of a variety of IMPEP operational
issues because it attends to these issues on an informal basis.
Consequently, operational issues that may hinder the effectiveness
of the program are not being captured using a methodical
approach. Improving the communication and documentation of
operational issues to FSME management would help identify and
correct issues in a timely manner and enhance the effectiveness of
IMPEP. Moreover, having a systematic mechanism for conducting
self-assessments would complement FSME’s ongoing efforts at
program self-improvement and help IMPEP better adapt to a
dynamic regulatory environment.

Recommendation:

1. Develop a mechanism for conducting self-assessments and
   capturing lessons learned for IMPEP on a regular basis.




                          9
                                                                   Audit of NRC’s Agreement State Program



         B. NRC Could Be Challenged To Re-exert Authority Over an
            Agreement State Program in the Event of an Emergency

                  In the event of an emergency in an Agreement State whereby the
                  State regulators are partially or fully incapacitated, NRC could be
                  challenged to re-exert authority over an Agreement State program
                  due to a lack of access to certain program and materials licensee
                  information. Under the Atomic Energy Act, NRC can temporarily
                  suspend its agreement with a State during an emergency situation.
                  However, NRC has not identified all of the information necessary
                  for re-exerting authority and lacks the formal procedural guidance
                  about what information is needed about Agreement State programs
                  and materials licensees. Without this valuable planning
                  information, NRC could lose oversight and awareness of licensees
                  and materials.

                  Emergency Suspension of Agreement

                  NRC’s authority to suspend an Agreement State program stems
                  from Section 274j of the Atomic Energy Act, “Termination of
                  Agreement,” which specifically states that the Commission may
                  temporarily suspend its agreement with a State if an emergency
                  situation exists.7 FSME has issued an implementing procedure
                  associated with Section 274j. This procedure, SA-112, Emergency
                  Suspension of a Section 274b Agreement, describes the process to
                  be used by the Commission to temporarily suspend an Agreement
                  State program when an emergency situation exists. According to
                  SA-112, the appropriate NRC region is responsible for coordinating
                  with the State to make sure that necessary information is gathered
                  and action is taken to notify the affected licensee, or groups of
                  licensees, that NRC is taking over the State’s program.

                  NRC Lacks Certain Agreement State Information

                  Although NRC has a procedure in place to suspend an Agreement
                  State program in the event of an emergency, NRC could be
                  challenged to re-exert authority over an Agreement State program.
                  This challenge stems from the agency’s lack of information that the



7
  Section 274j specifically states that “the Commission, upon its own motion or upon request of the
Governor of any State, may, after notifying the Governor, temporarily suspend all or part of its agreement
with the State without notice or hearing if, in the judgment of the Commission: (A) an emergency situation
exists with respect to any material covered by such an agreement creating danger which requires immediate
action to protect the health or safety of persons either within or outside of the State, and (B) the State has
failed to take steps necessary to contain or eliminate the cause of the danger within a reasonable time after
the situation arose.”


                                                     10
                                    Audit of NRC’s Agreement State Program



Agreement States have regarding materials licensees in their plans
and programs that would be necessary for NRC to effectively
manage an Agreement State’s program during the emergency
conditions.

Such information might also include the Agreement States’ own
continuity of operations planning that could help Federal and State
regulators in the event of a major disaster. For example, one
Agreement State has various types of program contingency plans
addressing such topics as emergency operations support at the
State level, business continuity for critical services, and disaster
recovery for critical technology systems. To prepare for
emergencies, this Agreement State has geographically dispersed
offices that can assume duties in support of each other to minimize
the impact of a major disaster in any one location. Managers in this
Agreement State said that it would be difficult for NRC to assume
control of the State's program if a natural disaster occurred
because NRC does not understand the State’s continuity planning.
Therefore, this State’s program managers hypothesized that, in the
event of an emergency, NRC would not be able to help effectively
and could potentially get in the way of the State’s post-crisis
actions.

OIG requested documentation for the agency’s plan for re-exerting
authority in Agreement States from both FSME and the Office of
Nuclear Security and Incident Response (NSIR), and neither office
could provide a formal plan. One FSME manager stated that he
had never thought about a situation in which NRC would need to
immediately re-exert authority over an Agreement State program.
Another manager believed that NRC would have enough time to
coordinate with State officials in the event of an emergency. This
perspective was echoed by an NSIR official, who stated that in the
event of an emergency, NRC would contact the State and,
together, NRC and the State would discern how to handle the
situation. However, it may be unrealistic to assume that there
would be adequate time to coordinate with State officials or that
State officials would even be available for such coordination.

Agency Lacks Guidance To Identify Needed Information

NRC’s lack of Agreement State information that would be
necessary for the agency to temporarily re-exert authority over
Agreement State programs stems from the following:

   o NRC has not formally identified all of the information
     necessary for re-exerting authority.



                          11
                                     Audit of NRC’s Agreement State Program



   o NRC lacks the formal procedural guidance about what
     information is needed about Agreement State programs and
     materials licensees.

NRC does not routinely request from Agreement States program
and licensee information that would be necessary for NRC to re-
exert authority in a State. Neither FSME nor NSIR collects this kind
of information. Furthermore, OIG observed that State continuity
planning was not examined during IMPEP reviews. An IMPEP
team member stated that IMPEP reviews do not collect this
information because NRC does not classify State continuity of
operations planning as an adequacy or compatibility issue.

Furthermore, NRC lacks formal procedural guidance about what
information is needed about Agreement State programs and
materials licensees. For example, while SA-112 describes the
process to temporarily suspend an Agreement State program when
an emergency situation exists, it does not describe the Agreement
State program and materials licensee information needed for re-
exerting authority over a State.

NRC Could Lose Agreement State Oversight and Awareness

NRC could be challenged to re-exert authority over Agreement
State programs because the agency does not have access to
certain program and materials licensee information that the
Agreement States have. Thus, there is a greater potential for NRC
to lose oversight and awareness of Agreement State licensees and
materials. It is especially important now, in the post-9/11 and post-
Hurricane Katrina environment, that NRC maintain awareness of
Agreement States’ programs and materials licensee information
because this lack of preparation could have potential health, safety,
and security implications, and lead to public embarrassment for
NRC and Agreement State regulators.

Recommendation:

2. Develop formal procedural guidance for identifying what
   information is needed about Agreement State programs and
   materials licensees in the event that an Agreement State is no
   longer capable of adequately performing its function of
   protecting public health and safety for an indeterminate period
   of time.




                          12
                                         Audit of NRC’s Agreement State Program



C. NRC Lacks Standardization in Communications With, and
   Collection of Information From, the Agreement States

     NRC’s communications with, and collection of information from, the
     Agreement States is not standardized even though NRC serves as
     the Federal-level presence for materials safety and security under
     the National Materials Program. Both the Atomic Energy Act and
     the agreements between NRC and the Agreement States
     emphasize the importance of cooperation between the agency and
     the States. Also, the National Materials Program focuses on the
     shared program activities between NRC and the Agreement States
     as well as the Agreement States’ abilities to assume a greater
     proportional responsibility for shared program activities. However,
     NRC’s information exchange efforts, while better now than in
     previous years, need additional improvement. This is due to a lack
     of (1) standardization in NRC’s communication procedures, and (2)
     a standardized data collection process that can be used as a basis
     for developing a national information sharing tool. As a result,
     some States may be unaware of important issues, and NRC does
     not have a full and accurate picture of Agreement State regulatory
     activities.

     The Importance of Cooperation Between NRC and the
     Agreement States

     Both the Atomic Energy Act and the agreements between NRC and
     the Agreement States emphasize the importance of cooperation
     between the agency and the States. Section 274a of the Atomic
     Energy Act, “Cooperation With States,” emphasizes the need to
     establish programs for cooperation between the States and the
     Commission with respect to control of radiation hazards associated
     with the use of Agreement materials. Furthermore, a typical signed
     agreement between NRC and an Agreement State includes a
     clause about NRC using best efforts to cooperate with the States in
     the formulation of standards and regulatory programs to protect
     against hazards of radiation and to ensure the State’s program will
     continue to be compatible with the agency’s program.

     NRC’s agreements with States include language about how NRC
     and the States will use best efforts to keep each other informed of
     proposed changes in their respective rules and regulations, and to
     obtain comments and assistance from each other. The two most
     recent State agreements—with Minnesota and Pennsylvania—also
     include a statement that NRC and the State “agree to keep each




                              13
                                     Audit of NRC’s Agreement State Program



other informed of events, accidents, and licensee performance that
may have generic implications or otherwise be of regulatory
interest.”

As the Federal authority in a National Materials Program, NRC has
the responsibility to communicate regulatory and other program
changes to its Agreement State partners, such as changes in
licensing procedures. NRC is also responsible for collecting
information from the Agreement States for different purposes, such
as obtaining State responses to the pre-IMPEP questionnaire or
information about the status of certain types of licensees operating
in the States.

Information Exchange Efforts Could Be Improved

Agreement State officials have stated and OIG analysis shows that
NRC’s communications with, and collection of data from, the
Agreement States could be improved. NRC employs several
methods to exchange information with the Agreement States,
including the use of formal letters, e-mail messages, telephone
calls, working groups, and meetings, and through the IMPEP
review process, which provides an opportunity for NRC and
Agreement State staffs to share information and best practices.
However, NRC’s communications to the Agreement States through
the RSAOs and via e-mail could be improved. Furthermore, NRC
does not systematically collect important program data from the
Agreement States outside of IMPEP.

      Communications

Some Agreement State officials said that communications with
NRC have improved over the years. The States are particularly
appreciative of having NRC technical staff available for
consultation. However, NRC’s communications to the Agreement
States through the RSAOs and via e-mail need additional
improvement.

A primary means of communicating with the Agreement States is
through one of the five agency RSAOs, who are located in three of
the four NRC regions. The RSAOs are afforded flexibility in
developing rapport with their assigned States, and much of their
communications are informal. However, this flexibility does not
guarantee that important information exchanges between NRC and
the Agreement States take place. For example, in February 2008,
the RSAOs were asked by Region I to e-mail their Agreement State
contacts and request that the States check with all manufacturer



                          14
                                    Audit of NRC’s Agreement State Program



and distributor licensees. The purpose was to alert these licensees
about an unusual purchase inquiry that was received by an NRC
licensee from an unidentified suspicious buyer. However, two of
the five RSAOs were not familiar with the unusual purchase inquiry,
and OIG has not been able to confirm whether all of their
Agreement States were ever contacted. OIG is aware of at least
two Agreement States that were not contacted by NRC about the
unusual order, and officials in one of these States said they had a
number of manufacturer and distributor licensees in the State.

Another way NRC communicates with the Agreement States is via
e-mail, which several Agreement States have described as
overwhelming. Some State personnel reported getting the same e-
mail several times from NRC sources as well as from other State
staff. State officials have also said that, given the volume of
information coming from NRC, it can be difficult to separate the
truly important from the “nice-to-know” information. For example,
an Agreement State official said that he does not always have time
to read everything and determine that a response or some action is
required of him. Another Agreement State official said he received
almost 1,400 e-mails from NRC during a 1- to 2-year period.

      Data Collection

NRC does not systematically collect program data from the
Agreement States outside of IMPEP. While NRC periodically
collects a large amount of information from the Agreement States
through the IMPEP process, such information is limited to those
items that NRC deems necessary to assess an Agreement State’s
program adequacy and compatibility. Other types of information—
such as State notices of suspended or revoked licensees, and
enforcement and allegations data—are not routinely collected for
the purposes of trending, analysis, and data sharing.

One type of data-sharing that a number of Agreement States
suggested NRC could enhance is the collection and sharing of
information on licensee revocations and suspensions. The concern
is that a licensee with a revoked or suspended license in one State
could simply apply for a license in another State. The agency
currently maintains a list of NRC licensees that have been
suspended or revoked, and the agency sometimes shares this
information with Agreement States. NRC encourages voluntary
sharing amongst the Agreement States of this information and
some Agreement States already share information about revoked
or suspended licensees with neighboring States, but NRC does not
collect this kind of data from the Agreement States.



                         15
                                     Audit of NRC’s Agreement State Program



NRC also does not routinely and systematically collect Agreement
State allegations and enforcement data. FSME officials are
reluctant to do so, citing a lack of any need to know of or use such
information. FSME managers also pointed out that there is no
regulatory requirement or other Federal mandate that requires
Agreement States to submit or NRC to collect this information.
Nonetheless, an FSME manager stated that NRC has
programmatic oversight responsibility for the program and, as the
Federal regulator, NRC should not relinquish that responsibility.
The manager also stated that if there were a serious event in an
Agreement State and Congress became interested in that event,
Congress would turn to NRC to testify, not the Agreement State.

Agency Lacks Standardized Communications Procedures and
Data Collection and Sharing Tools

NRC lacks standardized procedures and tools to facilitate both
communications with and data collection from the Agreement
States. For communications with the Agreement States, the
agency lacks formal standardized procedures or guidance for
RSAOs, including for communicating significant events through the
RSAOs or other means. With regard to data collection from the
Agreement States, NRC lacks a standardized data collection
process that can be used as the basis for a national information
sharing tool.

      Communications Procedures Needed

NRC lacks formal standardized procedures or guidance for RSAOs
to communicate with the Agreement States. Furthermore, the
agency has not developed a procedure for prioritizing the types of
communications provided to the Agreement States.

The RSAOs are not aware of any formal standardized procedures
or guidance for how they are utilized by the agency to communicate
with the Agreement States. An NRC manager cautioned that
adding a procedure may result in inefficiencies if it required RSAOs
to get permission for every communication with the States.
However, the manager did not make a distinction between the
RSAOs’ typical day-to-day communications activities and those
communications efforts that are in response to an unusual or
significant event.

Had such processes been in place, NRC’s Agreement State
partners would have had adequate notification to check with the
manufacturer and distributor licensees in their respective States



                          16
                                      Audit of NRC’s Agreement State Program



about the unusual purchase inquiry from a suspicious buyer
discussed in the earlier example. As one Agreement State official
observed, NRC does not have any clear method for releasing this
kind of information to the States. The State official considered this
peculiar because NRC always wants the States to have a record of
every incident that occurs.

NRC management has also acknowledged problems with the way
the agency communicates to Agreement States via letters and e-
mail. The lack of a procedure has recently prompted FSME
managers to begin implementing ways to disseminate information
to the States.

       Data Collection Process Needed

NRC lacks a standardized data collection process that can be used
as the basis for sharing information on a national level. Such a
process would include documented procedures and guidance—
along with some information management tools—to facilitate the
collection and/or sharing of “bad actor” licensee information, and
allegation and enforcement data.

NRC managers indicated that there is a need for a process to
capture suspended/revoked licensee and enforcement data. For
example, a few years ago, an applicant was banned from getting a
radiography license in multiple States. As one manager said, this
type of information is important and there should be a system for
capturing it. Another manager said that the idea of a national
database that keeps track of this kind of information has been
considered before, but these efforts have not progressed.

FSME managers cautioned that it would be difficult to implement a
data collection process because it would require consensus among
all 35 Agreement State regulators. One manager said that some
States might be resistant to change because of budgeting
constraints. Furthermore, Agreement State officials point out that
such a database could be inappropriately used to blacklist potential
licensees. Still, as one State official said, if another State has “bad
actors” then the other jurisdictions need to know about them as
well. OIG contends that NRC could establish a data collection
standard via new rulemaking.




                           17
                                                                 Audit of NRC’s Agreement State Program



                 A process to support systematic enforcement data collection is also
                 needed. An NRC manager stated that an enforcement database
                 would benefit reciprocity8 because a State would be able to look up
                 a licensee and identify any violations that occurred in another State.

                 Impacts on NRC and State Regulatory Efforts

                 Lacking standardized procedures and tools to facilitate both
                 communications with and data collection from the Agreement
                 States, NRC and State regulators are denying themselves benefits
                 of information sharing. Moreover, the consequences of not
                 collecting information, such as licensing and inspection practices,
                 incidents, and other technical and statistical information, could
                 potentially impact the American public health and safety and also
                 hamper the identification and evaluation of issues and options for
                 the development of program responses to national problems.

                 NRC also assumes risks in not having standardized
                 communications, prioritization, and data collection procedures.
                 Ultimately, this increases the likelihood that States are not
                 cognizant of some important issues and “bad actors,” and NRC not
                 having a full and accurate awareness of Agreement State
                 regulatory activities. By improving communication and data sharing
                 activities, coordination and cooperation between NRC and
                 Agreement States should be enhanced.

                 Recommendations:

                 3. Develop a set of procedures that standardizes communications
                    from NRC to the Agreement States.

                 4. Develop a standardized data collection process that can be
                    used as the basis of an information sharing tool on a national
                    level.




8
   Reciprocity is the notion that a licensee from one Agreement or non-Agreement State can operate in
another Agreement or non-Agreement State, which can accept the license at face value as long as the
licensee follows the rules of the State in which it wishes to operate.


                                                    18
                                                                   Audit of NRC’s Agreement State Program



         D. Weaknesses Exist in NRC’s Review of Agreement State Event
            Reporting

                  NRC’s reviews of whether an Agreement State has appropriately
                  reported all events to the Nuclear Material Events Database
                  (NMED) may not be consistently performed. While IMPEP reviews
                  do look at NMED data submitted by Agreement States, the relevant
                  IMPEP procedure does not require an analysis of unreported
                  events to determine whether such events are being appropriately
                  identified for and included in NMED. Consequently, NRC and the
                  public may have an inaccurate accounting of material events in
                  some States, which could also hamper events data trend analysis
                  efforts.

                  The Purpose of NMED

                  Agreement State licensees are required to report the occurrence of
                  incidents and events involving the use of nuclear materials to the
                  appropriate regulatory agency. NRC also requires Agreement
                  States to report some of these events to NMED. Under the
                  authority of the Atomic Energy Act and the Energy Reorganization
                  Act of 1974, as amended, NRC evaluates material event reports for
                  both NRC and Agreement State licensees. NRC compiles
                  materials event data through NMED and the agency’s Event
                  Notification system.9 NMED contains a historical collection of
                  information on the occurrence, description, and resolution of events
                  involving the use of radioactive materials in the United States and is
                  intended to accommodate the sharing of material event data
                  submitted by Agreement States and non-Agreement States. FSME
                  uses the data collected in NMED for trending analysis.

                  The FSME procedure which establishes a process for the
                  collection, control, and preliminary review of material events that
                  have been reported to NRC by the Agreement States is SA-300,
                  Reporting Material Events. This procedure also provides U.S.
                  Code of Federal Regulations regulatory reporting requirements for
                  material events. Moreover, it encourages States to voluntarily
                  report an event that might be of safety significance or of generic
                  interest or concern, even though it does not meet the regulatory
                  reporting requirement.




9
 The Event Notification system is an NRC automated event tracking system used by the NRC Operations
Center to track information on incoming notifications of the occurrence of significant material events that
have affected or may affect public health and safety.


                                                     19
                                                                   Audit of NRC’s Agreement State Program



                  The IMPEP teams are tasked with reviewing Agreement State data
                  submissions to NMED. According to SA-105, Reviewing the
                  Common Performance Indicator, Technical Quality of Incident and
                  Allegation Activities, IMPEP teams should examine a sample of
                  program incident response and allegation activities. This analysis
                  is done to confirm that appropriate followup measures to the
                  reported events are taken, whether NMED notification is performed
                  in a timely manner, and that the number and type of event reports
                  and technical quality of information recorded in NMED and on
                  record at the Agreement States are consistent.

                  NRC has responsibility for performing analysis on the information
                  contained in NMED for each major event type to identify any
                  statistically significant trends. FSME is the NRC office responsible
                  for NMED, and uses Idaho National Laboratory for coding and
                  quality control of the data. Idaho National Laboratory primarily
                  obtains the data for NMED from the agency’s daily reports (event
                  notifications, preliminary notifications, and morning reports), NRC
                  inspection reports, and Agreement State event notifications.
                  Though Idaho National Laboratory maintains the database, NRC
                  staff conduct a weekly review of all new material event notifications
                  received by the NRC Operations Center and followup reports
                  entered into NMED.10

                  IMPEP Reviews of NMED May Be Inconsistent

                  IMPEP reviews include an evaluation of whether the subject
                  Agreement State has appropriately reported all events to NMED,
                  but this effort may not be consistently performed. OIG’s analysis of
                  data in NMED indicates that some Agreement States may have
                  underreported events to NMED. For example, the number of
                  events submitted by one State that OIG reviewed was not
                  commensurate with the number of events reported by other States
                  when adjusting for the size of the State programs. However, the
                  reasons for this State’s relatively low number of submittals to
                  NMED was not addressed in the last full IMPEP report for the
                  State. Nor is it clear from the report whether the IMPEP team
                  specifically reviewed incidents that were not reported to NMED for
                  potential inclusion in the database.




10
  The objective of the review is to identify any events that may involve generic safety concerns or could
have significant impact on public health, safety, or security.


                                                     20
                                      Audit of NRC’s Agreement State Program



Relevant IMPEP Procedure Does Not Require Analysis of
Unreported Events

The FSME procedure SA-105 does not require the IMPEP team to
review the States’ events in order to determine whether events not
reported to NMED were appropriately not reported. The procedure
states the overall objective to verify that the information provided by
the Agreement States on incidents for inclusion in NMED is
complete and accurate. However, the review guidance in SA-105
does not specifically guide the IMPEP team to sample events that
were not reported to NMED and confirm that they were
appropriately not reported.

For example, SA-105 guides the IMPEP team to determine that the
number of events, type of event reports, and technical quality of
information recorded in NMED is consistent with the information on
record at an Agreement State. But SA-105 does not specifically
address those events that are not recorded in NMED for an
analysis of whether they should have been included in NMED.

Potentially Inaccurate Accounting of Events in Agreement
States

Given the lack of IMPEP guidance to review events that were not
reported to NMED and confirm that they were appropriately not
reported, NRC and the public may have an inaccurate accounting
of material events in some States. Furthermore, this could also
hamper trend analysis efforts that have occurred involving the
licensed and unlicensed use of nuclear materials, identification of
generic issues, and recognition of any inadequacies or unreliability
of specific equipment or procedures.

Recommendation:

5. Revise the applicable IMPEP procedure(s) to include a review
   of Agreement State events that are not recorded in NMED for
   an analysis of whether they should have been included in
   NMED.




                           21
                                            Audit of NRC’s Agreement State Program



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1. Develop a mechanism for conducting self-assessments and
           capturing lessons learned for IMPEP on a regular basis.

        2. Develop formal procedural guidance for identifying what
           information is needed about Agreement State programs and
           materials licensees in the event that an Agreement State is no
           longer capable of adequately performing its function of
           protecting public health and safety for an indeterminate period
           of time.

        3. Develop a set of procedures that standardizes communications
           from NRC to the Agreement States.

        4. Develop a standardized data collection process that can be
           used as the basis of an information sharing tool on a national
           level.

        5. Revise the applicable IMPEP procedure(s) to include a review
           of Agreement State events that are not recorded in NMED for
           an analysis of whether they should have been included in
           NMED.




                                  22
                                          Audit of NRC’s Agreement State Program


                                                                   APPENDIX A
SCOPE AND METHODOLOGY

       The audit objective was to assess NRC's oversight of the adequacy
       and effectiveness of Agreement State programs. OIG focused its
       review on the IMPEP process as well as other elements of the
       Agreement State program. To address the audit objective, OIG
       reviewed IMPEP guidance, attended IMPEP reviews, reviewed
       Federal guidance related to emergency preparedness planning,
       and analyzed the process for collecting and disseminating
       information to Agreement States. Additionally, OIG analyzed
       program documents, reviewed relevant management controls, and
       reviewed documentation from internal and external sources. Some
       of the key documents reviewed include:

       ¾ Section 274 of the Atomic Energy Act, “Cooperation with
         States.”

       ¾ Management Directive 5.6, Integrated Materials Performance
         Evaluation Program.

       ¾ Management Directive 5.9, Adequacy and Compatibility of
         Agreement State Programs.

       ¾ OMB Circular A-123, Management’s Responsibility for Internal
         Control.

       ¾ SA-102, Reviewing the Common Performance Indicator,
         Technical Quality of Inspections.

       ¾ SA-105, Reviewing the Common Performance Indicator,
         Technical Quality of Incident and Allegation Activities.

       ¾ SA-112, Emergency Suspension of a Section 274b Agreement.

       ¾ Federal Continuity Directive 1, Federal Executive Branch
         National Continuity Program and Requirements.

       ¾ NRC’s agreements with States.

       ¾ Letters issued to Agreement States by FSME.

       ¾ Material events reported to NMED by Agreement States from
         January 1, 2007, to June 30, 2008.




                                23
                                    Audit of NRC’s Agreement State Program



¾ IMPEP review reports issued from January 19, 2007, to August
  27, 2008.

Auditors also conducted interviews with more than 60 agency and
Agreement State employees, including NRC managers and staff at
Headquarters and the regions, and Agreement State managers and
staff members from 15 States.

OIG conducted this audit at NRC Headquarters, one region, and
selected Agreement States nationwide between February 2008 and
August 2008 in accordance with generally accepted Government
auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based
on our audit objectives.

Major contributors to this report were Sherri Miotla, Team Leader;
R.K. Wild, Audit Manager; Eric Rivera, Senior Auditor; David Ditto,
Senior Management Analyst; and Rebecca Ryan, Management
Analyst.




                          24
                              Audit of NRC’s Agreement State Program


                                                       APPENDIX B
FORMAL AGENCY COMMENTS




                         25
     Audit of NRC’s Agreement State Program




26
                                                 Audit of NRC’s Agreement State Program


                                                                          APPENDIX C
OIG ANALYSIS OF AGENCY COMMENTS

           On December 3, 2008, OIG provided a draft report to the Executive
           Director of Operations. OIG subsequently met with managers from
           the Office of Federal and State Materials and Environmental
           Management Programs and the Office of Nuclear Security and
           Incident Response on December 16, 2008, and again on January
           9, 2009, to address agency concerns with the draft report. OIG
           modified the report as appropriate in response to comments made
           by agency officials. On February 26, 2009, the Executive Director
           for Operations provided a formal response to this report. OIG’s
           analysis of those comments are provided below.

           NRC Comments

           The U.S. Nuclear Regulatory Commission (NRC) staff appreciates
           the recommendations resulting from the audit, and views these
           recommendations as enhancements to an already strong program
           that is a model for Federal and State government relations. The
           NRC’s Agreement State Program and the Integrated Materials
           Performance Evaluation Program (IMPEP) have been recognized
           domestically and internationally for its effectiveness. NRC has
           designated IMPEP as the program used to periodically evaluate the
           Agreement States to ensure adequate protection of public health
           and safety, as required by Section 274j of the Atomic Energy Act of
           1954, as amended. The International Atomic Energy Agency used
           IMPEP as a basis when developing its program to review member
           countries. In 2004, IMPEP was recognized by Harvard University
           as a Top 50 Finalist for the Innovations in Government Award. The
           staff does not consider any of the OIG findings as indicative that the
           Agreement State Program and IMPEP fail to continue to adequately
           fulfill their respective statutory requirements. The staff believes that
           the resolution of OIG’s recommendations will continue the
           improvement of both of these model programs.

OIG Response
OIG agrees that the recommendations will enhance the Agreement State and
IMPEP programs.

           Some of the audit findings and observations in this report are more
           indicative of a program where regulatory authority is delegated,
           rather than where regulatory authority is discontinued. The NRC’s
           Agreement State Program is a relinquishment, or discontinuance,
           of NRC’s regulatory authority where the State assumes that


                                      27
                                                            Audit of NRC’s Agreement State Program



                 regulatory authority. The statute governing the Agreement State
                 program requires that NRC maintain an oversight role to ensure
                 that public health and safety is adequately protected across the
                 nation. The audit report recognizes this unique transfer of Federal
                 responsibility to the States that sign Agreements with NRC in the
                 Background Section; however, some of the findings in the draft
                 report reflect a program where regulatory authority is delegated.
                 For example, on page 23, starting on line 19,11 the report implies
                 that NRC should routinely and systematically collect information,
                 such as allegation and enforcement information, from the
                 Agreement States. Under a relinquishment of authority, the need to
                 routinely collect this information is difficult to justify, and may not be
                 warranted. As appropriate, such information is evaluated during
                 IMPEP reviews.

     OIG Response
     OIG holds the view that (1) there should be a balance between the agency’s
     relinquishment of regulatory authority to the Agreement States and NRC’s
     responsibilities to oversee the program and (2) NRC’s oversight
     responsibilities should not be limited to determinations of State program
     adequacy and compatibility only through IMPEP reviews. The OIG report
     documents instances where additional types of Agreement State licensee
     information would be warranted to fulfill NRC’s role as a Federal-level partner
     in the Nationwide regulation of materials. In particular, allegation and
     enforcement data are precisely the types of information that would meet the
     requirement in recent NRC agreements with States that the regulatory
     partners “keep each other informed of events, accidents, and licensee
     performance that may have generic implications.”

                 The Agreement States did not have an opportunity to review and
                 comment on the draft audit report, even though many of the
                 findings and recommendations are based upon discussions with
                 Agreement State personnel. The staff suggests OIG consider
                 finding a method of sharing their predecisional information with the
                 Agreement States, and otherwise let them take a meaningful role in
                 the development process, especially regarding audit reports that so
                 closely audit their programs in the future.




11
  The page number cited in the formal agency comments refers to an earlier draft of this report.
The relevant citation in the final report is the section titled “Data Collection” on page 15.


                                               28
                                                 Audit of NRC’s Agreement State Program



OIG Response
OIG’s policy is to share draft reports with the responsible NRC organization or
office of the program under review, which, in this case, were two offices.
However, OIG also appreciates the importance of NRC’s coordinating with its
Agreement States partners. OIG encourages NRC to incorporate the various
perspectives of the Agreement States in developing a plan to address the OIG
recommendations.

            With regard to OIG Recommendation 4, the staff believes that the
            legal and policy ramifications of such information collection by NRC
            need further review. In addition, the staff has efforts underway for
            improvements to the materials program that may result in achieving
            the same objectives. For example, pre-licensing visits, background
            checks, and changes to NRC’s “good faith presumption,” if
            adopted, would provide opportunities to identify individuals with
            questionable backgrounds prior to their approval.

OIG Response
As discussed in the report, NRC serves as the Federal-level partner in the
National Materials Program and provides a coordinating role for all materials
regulators. This helps ensure that the safety and security of radioactive
materials is consistently regulated nationwide, rather than piecemeal among
36 different regulators, specifically 35 Agreement States and NRC. In simple
terms, OIG observed that there are some types of information that NRC does
not currently collect, that some of the Agreement State program managers
stated would be of value to them if NRC had collected it, and for which there is
no mechanism in place for collecting and sharing such information.
Recommendation 4 is designed to address these shortcomings.




                                      29
